                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: 6 6 L O 8 0 6'3 7
                                                                               11          Page 1 of 1



     We received an allegation of plagiarism in a funded NSF proposal. The complainant1 suggested
     that the ideas in the funded NSF proposal of another researcher (the subject2) may have come
     from his own proposal, and asked that the subject's proposal be examined for plagiarism.3 The
     subject's proposal was compared to the complainant's proposal. The two project descriptions
     were compared using CopyFind, which found no overlap in text. The proposals were also
     examined manually; no overlap in text, figures, research objectives, or specifically proposed
     research was apparent.

     There is no substance to the allegation of plagiarism, or of intellectual property theft.

     Accordingly, this case is closed.




     I
         Redacted
         Redacted
         Redacted
